APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the United States Court of Appeals for
the Ninth Circuit (February 9, 2021) ................ 1a
Judgment of the United States District Court for
the District of Arizona (July 30, 2020) .............. 2a
Report and Recommendation
(April 17, 2020) ................................................... 4a
OTHER DOCUMENTS
Article: Judge Tells Lawmakers Arizona Federal

Courts are Overloaded, Overworked

(February 24, 2021) .......................................... 32a

Podcast Excerpt: Why Legal Experts and Federal

Judges Call for a Judiciary Expansion in
Arizona (February 24, 2021) ............................ 36a

App.1a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT
(FEBRUARY 9, 2021)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
UNITED STATES OF AMERICA,

Plaintiff-Appellee,
v.
JOSEPH JOHN PLANY,

Defendant-Appellant.

________________________
No. 20-16689

D.C. Nos. 2:19-cv-00370-SRB
2: 12-cr-01606-SRB-2
District of Arizona, Phoenix
Before: McKEOWN and BUMATAY, Circuit Judges.
The request for a certificate of appealability is
denied because appellant has not made a “substantial
showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

App.2a
JUDGMENT OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF ARIZONA
(JULY 30, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
JOSEPH JOHN PLANY,

Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.

________________________

No. CV-19-00370-PHX-SRB
Decision by Court. This action came for consideration before the Court. The issues have been considered
and a decision has been rendered.
IT IS ORDERED AND ADJUDGED adopting the
Report and Recommendation of the Magistrate Judge
as the order of this court; defendant’s motion pursuant
to 28 U.S.C. 2255 to vacate, set aside or correct a sentence
is denied and the civil action opened in connection is
hereby dismissed.
Debra D. Lucas
Acting District Court
Executive/Clerk of Court

App.3a
By
July 30, 2020

s/ Rebecca Kobza
Deputy Clerk

App.4a
REPORT AND RECOMMENDATION
(APRIL 17, 2020)
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
________________________
UNITED STATES OF AMERICA,

Plaintiff/Respondent,
v.
JOSEPH JOHN PLANY,

Defendant/Movant.

________________________

No. CV-19-00370-PHX-SRB (DMF)
CR-12-01606-02-PHX-SRB
Before: Honorable Susan R. BOLTON,
Senior United States District Judge.
TO THE HONORABLE SUSAN R. BOLTON, SENIOR
UNITED STATES DISTRICT JUDGE:
Joseph John Plany (“Movant”) is an inmate
detained at the Beaumont Low Federal Correctional
Institution in Beaumont, Texas.1 (Doc. 11 at 1)2 On
1 Movant was located using the federal inmate locator website
on April 6, 2020, at https://www.bop.gov/inmateloc/ using his full
name as the search term.
2 Citations to the record indicate documents as displayed in the
official electronic document filing system maintained by the
District of Arizona. Citations to documents within Movant’s criminal

App.5a
January 24, 2019, Movant filed through counsel a
Motion Under 28 U.S.C. § 2255 to Vacate, Set Aside,
or Correct Sentence by a Person in Federal Custody
(“Motion”). (Doc. 1) Respondent filed its response on
May 20, 2019 (Doc. 7), after which Movant filed a
reply, also through counsel, on June 18, 2019 (Doc. 8).
The matter is referred to the undersigned Magistrate
Judge pursuant to Rules 72.1 and 72.2 of the Local
Rules of Civil Procedure for further proceedings and a
report and recommendation. (Doc. 6 at 3) For the
reasons set forth below, the undersigned Magistrate
Judge recommends that the Court deny the Motion
without conducting an evidentiary hearing and deny
a certificate of appealability.
I.

Indictment

On September 11, 2012, Movant was indicted
along with co-Defendant Paxton Jeffrey Anderson
(“Anderson”) on thirty-one counts of bank fraud pursuant to 18 U.S.C. § 1344, and one count of conspiracy
under 18 U.S.C. § 1349. (CR Doc. 3) As asserted in the
indictment, Movant was employed during the period
relevant to the charges by Dynamite Custom Homes
(“Dynamite”) and subsequently by J.R. Custom Homes.
(Id. at 2) Co-Defendant Anderson was the owner of
Dynamite and worked as a home builder through Dynamite and then through J.R. Custom Homes. (Id.) The
charges centered on allegations of bank fraud in that
Defendants “devised a scheme to purchase real properties that misrepresented both material information
in a uniform residential loan application” and required
case CR-12-01606-02-PHX-SRB are denoted “CR Doc.” Citations
to documents in Movant’s instant § 2255 matter CV-19-00370PHX-SRB (DMF) are denoted “Doc.”

App.6a
supporting documentation such as the applicant’s
“assets, income, liabilities, sources of intended downpayment, and intent to occupy the improved property
as a primary residence.” (Id. at 3) The indictment further
described the scheme as including falsifying invoices,
misrepresenting to lenders that work had been
completed, and forging construction draw requests
in order to obtain funds from the lenders. (Id.)
The conspiracy charge asserted that Movant,
Anderson, and others “conspired, confederated and
agreed with each other” to commit bank fraud “by
engaging in an ongoing conspiracy to obtain real
estate based on loan applications misrepresenting
material information to the lender and misrepresenting
that draw requests were used for construction expenses
when in fact the draws were used for personal expenses
of Anderson.” (Id. at 5-6) The indictment alleged that
the conspiracy would be accomplished by Anderson
recruiting his family members, friends and others as
“straw buyers” of construction loans with the purpose
of obtaining draw requests from the lender. (Id. at 6)
As part of the conspiracy, the indictment further
alleged that Anderson and Movant “copied and pasted
signatures from one document to another in order to
qualify buyers for loans or directed others to do so.”
(Id. at 7) The indictment also alleged that Anderson
deposited money into prospective borrowers’ accounts
to make it appear the borrowers had adequate assets
to qualify for loans, and also gave the borrowers money
for down payments, knowing it was being misrepresented to the lender that such payments were being
made by the borrower. (Id.) The indictment alleged that

App.7a
Movant falsified draw requests and also assisted borrowers by “falsely inflating borrower’s bank accounts.”
(Id.)
II.

Summary of Court Proceedings

On May 8, 2014, the case went to trial before a jury.
(CR Doc. 450) At the close of the Government’s case
and on motion by the Government, the court dismissed
with prejudice four bank fraud counts for lack of sufficient evidence. (CR Doc. 459 at 154) After a 13-day trial,
on June 4, 2014, the jury found Movant guilty on 23
counts of bank fraud and on the conspiracy count. (CR
Doc. 462 at 7-9)
On May 18, 2015, the Court sentenced Movant to
48 months of imprisonment to be followed by 5 years
of supervised release. (CR Doc. 486 at 1) Movant and
Anderson were ordered to jointly and severally pay
restitution in the amount of $2,909,017.46. (Id. at 2)
Through appointed counsel, Movant filed a notice
of appeal with the Ninth Circuit on August 25, 2015.
(CR Doc. 488) Movant and Anderson appealed the
Court’s order denying their motion for acquittal and
alternative motion for a new trial. (Doc. 509-2 at 2)
In an unpublished memorandum opinion filed on October 10, 2017, the Ninth Circuit held there was not
sufficient evidence to support Count 1 in the indictment
for bank fraud because “the evidence was insufficient
to allow any rational juror to find, beyond a reasonable
doubt, that M&I Bank was the lender for Count One.”
(Doc. 1-2 at 3-4 (emphasis in original)) Movant had been
acquitted on Count 1, and the Ninth Circuit’s decision
reversed Anderson’s conviction on Count 1. (CR Doc.
462 at 7; Doc. 1-2 at 8) However, the Ninth Circuit
held there was “sufficient evidence to allow reasonable

App.8a
jurors to find that M&I Bank and TierOne were FDIC3insured institutions and were the lenders on the
remaining counts.” (Doc. 1-2 at 3-4) Among other
holdings, the Ninth Circuit held that the conspiracy
count in the indictment was not duplicitous, the Court
did not err by “failing to give a specific unanimity
instruction sua sponte” or by failing to reduce Movant’s
sentence, or in its restitution order. (Id. at 5-8)
At trial, Movant was represented by retained
counsel Thomas Hoidal. On appeal, Movant was represented by Michael J. Bresnehan. Counsel Anders V.
Rosenquist represents Movant in these habeas proceedings.
III. Movant’s Habeas Grounds
Movant asserts three grounds for relief (Doc. 1 at
8-16) In Ground One, Movant claims his trial counsel’s
performance was deficient because counsel failed to
recognize early on in the case that Movant was not a
“major participant” in the crimes alleged and failed to
approach the prosecutor to negotiate a cooperating
witness agreement. (Doc. 1 at 8-10)
Movant’s Ground Two claim is that his due process
rights were violated due to his trial counsel’s malfeasance when counsel agreed to a joint defense with codefendant Anderson under which Movant agreed not
to testify. (Id. at 10-12)
In Ground Three, Movant complains the Court
lacked jurisdiction on several counts charged in his
case because FDIC insurance for M&I Bank did not
extend to M&I Mortgage Company, and “[m]any of the
3 Federal Deposit Insurance Corporation.

App.9a
financial transactions supporting the charges in this
case were made by M&I Mortgage Company, not M&I
Bank.” (Id. at 13-16)
IV. Standards of Review
A. Section 2255 Motion to Vacate, Set Aside, or
Correct Sentence
A federal prisoner is entitled to relief from his
sentence if it was “imposed in violation of the United
States Constitution or the laws of the United States,
or that the court was without jurisdiction to impose
such sentence, or that the sentence was in excess of
the maximum authorized by law, or is otherwise subject to collateral attack.” 28 U.S.C. § 2255(a).
B. Ineffective Assistance of Counsel
To obtain relief for a claim of ineffective assistance
of counsel (“IAC”), a movant must show both that
counsel’s representation fell below an objective standard
of reasonableness and also that counsel’s deficient
performance prejudiced the defense. Strickland v.
Washington, 466 U.S. 668, 687-88, 692 (1984). In
reviewing counsel’s performance, courts “indulge in a
strong presumption that counsel’s conduct falls within
the wide range of reasonable professional assistance.”
Id. at 690. “A fair assessment of attorney performance
requires that every effort be made to eliminate the distorting effects of hindsight, to reconstruct the circumstances of counsel’s challenged conduct, and to evaluate
the conduct from counsel’s perspective at the time.” Id.
at 689. The standard for judging counsel’s representation
is “highly deferential.” Id. It is “all too tempting” to
“second guess counsel’s assistance after conviction or

App.10a
adverse sentence.” Id. “The question is whether an
attorney’s representation amounted to incompetence
under ‘prevailing professional norms,’ not whether it
deviated from best practices or most common custom.”
Harrington v. Richter, 562 U.S. 86, 105 (2011) (quoting
Strickland, 466 U.S. at 690).
To establish prejudice, a movant must show a
“reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding would
have been different.” Strickland, 466 U.S. at 694. A
“reasonable probability” is one “sufficient to undermine confidence in the outcome.” Id. The court need
not reach both components of Strickland if there is an
insufficient showing on one of the components. 466
U.S. at 697 (“Although we have discussed the performance component of an ineffectiveness claim prior to
the prejudice component, there is no reason for a
court deciding an ineffective assistance claim to
approach the inquiry in the same order or even to
address both components of the inquiry if the defendant
makes an insufficient showing on one.”).
C. Standard for Warranting Evidentiary Hearing
Under 28 U.S.C. § 2255, a court shall grant an
evidentiary hearing “[u]nless the motion and the files
and records of the case conclusively show that the
prisoner is entitled to no relief. . . . ” 28 U.S.C. § 2255(b).
To state a claim for ineffective assistance of counsel
such that a movant would be entitled to an evidentiary
hearing, a movant must allege facts showing that
“counsel’s conduct so undermined the proper functioning of the adversarial process that the trial cannot be
relied on as having produced a just result.” Strickland,
466 at 686.

App.11a
To show that he is entitled to an evidentiary
hearing, a movant must allege “specific factual allegations that, if true, state a claim on which relief could
be granted.” United States v. Leonti, 326 F.3d 1111,
1116 (9th Cir. 2003) (internal quotations and citations
omitted). In determining whether to grant an evidentiary hearing, a court must consider whether, accepting
the truth of a movant’s factual assertions that are not
directly and conclusively refuted by the record, the
movant could prevail on his claims. United States v.
Blaylock, 20 F.3d 1458, 1465 (9th Cir. 1994); Turner v.
Calderon, 281 F.3d 851 (9th Cir. 2002).
V.

Discussion
A. Ground One: IAC — Failure to Negotiate for a
Plea Agreement

In Ground One, Movant asserts his trial counsel’s
performance was deficient when counsel failed to “make
himself aware of [Movant’s] role in the case” and that
Movant was “not a major participant” in the alleged
conspiracy and thus failed to approach the Government
to negotiate a cooperating witness agreement. (Doc. 1
at 9) Movant argues that under the facts of this case
his defense counsel must have known that timing was
critical to approach the prosecutor early to negotiate
a cooperating witness agreement, particularly as
Movant was “[a] lower level person who could testify
to how the conspiracy worked, which [Movant] could.”
(Id.) Movant contends that his trial counsel waited
three years before approaching the prosecutor to try
and resolve his case, at which time it was too late
because Movant’s co-conspirators and others had already
made favorable plea and immunity agreements and
Movant’s participation was unnecessary. (Id. at 10)

App.12a
Movant’s argument that he was not a “major
participant” in the conspiracy is inconsistent with the
evidence presented at trial. First, the testimony of
witnesses was that Movant was in charge of the office
used by Dynamite Custom Homes (“Dynamite’) and
later, by J.R. Custom Homes. Prosecution witness
Shawna Smith, who worked for Dynamite and J.R.
Custom Homes in the same office with Movant,
testified that Movant was the office manager and that
co-defendant Anderson was seldom in the office and
came in once every one or two weeks for only brief periods of time. (Doc. 457 at 169, R.T. 05/27/2014) Witness
Mike Blemaster described Movant as Paxton
Anderson’s “right-hand man” in the Dynamite Custom
Home’s office who did all of Anderson’s “paperwork,
draw work, . . . maybe talking to clients[.]” (Doe. 454
at 77, R.T. 05/16/2014) Blemaster stated that Movant
performed in-house management of the business,
including cutting checks to subcontractors. (Id.) Witness
Bill Bailey testified that “more often than not,”
Movant was the only person in the office and that
Movant ran the office. (Doc. 455 at 72, R.T. 05/20/2014)
Second, evidence establishes that Movant was the
person who carried out the majority of the “clerical”
tasks associated with the falsification of loan applications, construction loan draw requests, and invoices
for work not performed. Several witnesses testified that
Movant was instrumental in assisting at least some
borrowers to complete applications for construction
loans by providing falsified supporting documentation.
Witness Greg Sanchez testified that Anderson created
documents involving false statements of prepaid expenses for borrowers to qualify for loans and said that he
believed Movant had assisted. (Doc. 456 at 36-37, R.T.

App.13a
05/21/2014) Shawna Smith confirmed that Movant had
issued company checks to put in borrowers’ accounts.
(Doc. 457 at 201-202, R.T. 05/27/2014) Ms. Smith also
testified to seeing Movant “fix a number on a bank
statement on a deposit number” when Dynamite “didn’t
have enough money to put into a borrower’s account
to get approved for a loan.” (Id. at 212)
There was repeated testimony by trial witnesses
that Movant had signed construction loan draw requests
that also featured the borrower’s forged signatures,
without the borrower’s approval. Witness Mark Acre
testified this occurred in December 2005 (Doc. 451 at
109-110, R.T. 05/09/2014), and in February, March, and
April 2005 (Id. at 111-112). Witness Jason Rongstad,
the nominal owner of J.R. Custom Homes, identified
Movant’s signature on a draw consent form associated
with a home being built for Will Henstein. (Doc. 452
at 177-178, R.T. 05/13/2014) Rongstad confirmed he
had never given Movant authority to sign on his behalf.
(Id. at 179) Mr. Rongstad testified that Movant had
signed similar draw consent forms without authorization, including one where Movant is designated as the
general contractor for J.R. Custom Builders, although
Movant was not a licensed contractor. (Id. at 181-186)
Greg Sanchez confirmed that his signature had been
forged on several draw requests that were accompanied
by an “affidavit of contractor” form that were signed
by Movant. (Doc. 456 at 90-91, R.T. 05/21/2014)
Sanchez declared that although Movant signed as the
contractor on a construction loan draw, Movant was not
a contractor. (Doc. 457 at 67, R.T. 05/27/2014) Witness
Tasha Henstein testified that Movant’s signature
was on “a lot of documents” the Hensteins were
involved with respecting their real estate dealings

App.14a
with Dynamite and Anderson. (Id. at 99) She attested
that Movant signed draw requests on which her’s and
her husband’s signatures were forged. (Id. at 125-127)
Ms. Henstein denied ever authorizing Movant to forge
her name on draw requests. (Id. at 163)
Witness Shawna Smith reported she worked for
Dynamite beginning in August or September 2006 to
help in the office, specifically to assist in keeping track
of projects. (Id. at 167-168) Smith declared that she
had observed Movant cutting and pasting borrower’s
signatures onto draw requests. (Id. at 205-206) Ms.
Smith said she observed Movant take a document out
of a borrower’s file, copy and cut out the signature,
affix the signature to the document requiring a
signature, make a copy, white out any lines and then
make a final copy including the borrower’s copies signature. (Id. at 206) Ms. Smith said these documents were
always transmitted by fax “so if it was just garbled, it
didn’t really — it wasn’t questioned.” (Id.) Smith
further testified that after she had been in the office
for three to four months, Movant asked her to assist
with cutting and pasting signatures onto draw requests.
(Id. at 207) Additionally, Smith said she recalled
Movant copying and pasting the Hensteins’ signatures
on to a contract. (Id. at 209) She stated that “whenever
there was a draw request, the cutting and pasting of
signatures was done.” (Id. at 210)
Additionally, prosecution witnesses who had been
borrowers in the scheme testified that Dynamite paid
them money so that they could afford to write a
monthly mortgage payment to the lender and explained
that when they applied for their loan they hid from the
lender that Dynamite would be covering their monthly
payment for them. (See, e.g. testimony of witness Bill

App.15a
Bailey, Doc. 455 at 76-77, 84-85, 90-92, R.T. 05/20/2014)
Mr. Bailey said he would sometimes collect the checks
from Dynamite at the office from Movant, although
Bailey said he did not actually observe Movant signing
the checks. (Id. at 92) Witness Oliver Adam, a borrower,
testified that he would receive checks signed by Movant
from Dynamite Custom Homes so that Mr. Adam and
his wife could make mortgage payments. (Id. at 204)
Shawna Smith testified that she learned that money
was being put in borrower’s accounts by Dynamite
and J.R. Custom Homes “through conversations with
[Anderson and Movant] on speaker phone and e-mails
sent from [Anderson] copying [Movant] and myself.”
(Doc. 457 at 201, R.T. 05/27/2014) Ms. Smith further
testified that she witnessed Movant creating invoices
for use in the scheme, at the direction of Anderson.
(Id. at 202-203)
Third, testimonial evidence establishes that Movant was aware of the bank defrauding scheme and
knowingly furthered the purposes of the conspiracy.
Mortgage broker Mike Blemaster testified that he
engaged in discussions with borrower Paul Jennett,
Movant and Anderson regarding whether Jennett had
an “interest reserve into the construction loan to make
the interest payments during the construction process.”
(Doc. 454 at 97, R.T. 05/16/2014) Mr. Blemaster said
he had an exchange with both Anderson and Movant
about Movant’s sister qualifying for a loan as a
potential borrower in the scheme. (Id. at 130) Blemaster
further testified that Movant had frequently interacted with him, the mortgage broker, while Blemaster
was helping borrowers obtain construction loans, and
that Movant also communicated with the lenders,
including Tier One and M&I Bank. (Id. at 142) Mr.

App.16a
Blemaster confirmed in the factual basis for his plea
agreement with the Government that Movant, along
with Anderson, was involved in the conspiracy to
defraud the banks. (Doc. 455 at 55, R.T. 05/20/2014)
Greg Sanchez, who had been a friend of Movant for
many years, testified that he had warned Movant that
Movant “was going down the wrong path with
Anderson and [Movant] should not do it.” (Doc. 456 at
70, R.T. 05/21/2014) Sanchez stated that Movant told
him that Movant was “covering himself in case anything were to ever happen.” (Id.) Sanchez said he
spoke with Movant after Sanchez realized his signature
on a draw request had been forged, and that he had
also witnessed Movant forging Mike Blemaster’s
name on a document. (Id. at 92, 95)
On this evidence, Petitioner’s argument that he
was merely a lower-level participant is not supported,
and accordingly does not establish his claim that trial
counsel was ineffective for failing to immediately
approach the Government to attempt to obtain a cooperating witness agreement. As the Court accurately
recognized at Movant’s sentencing, while Movant’s
role in the conspiracy was significantly less than that
of Anderson’s, Movant was nonetheless “an integral
participant in this fraud on a day-to-day basis. He was
the person that produced the documentation that
resulted in the fraudulent draws. He cut and pasted.
He forged. He created false invoices.” (Doc. 503 at 64,
R.T. 05/18/2015) The Court further concluded that
“[Movant] did all the paperwork. And [Movant] knew
that the paperwork he was producing was fraudulent,
whether it’s because he actually put a fraudulent
signature on it or because he created a fraudulent invoice
or he created a fraudulent company to go along with

App.17a
the fraudulent invoice.” (Id. at 65) The Court emphasized that “[e]ven if Mr. Anderson was the one that
was directing it, it really probably couldn’t have
happened or at least happened for as long as it did
without [Movant] on a day-to-day basis committing all
of these fraudulent acts.” (Id.)
Further, the record indicates that Movant himself
was not inclined to pursue a witness agreement. In
August 2010, more than two years before he was
indicted, Movant was interviewed by an FBI agent
and an IRS agent. (Doc. 7-1 at 2) Movant told the
agents he had worked as an accountant for the
businesses owned by co-defendant Paxton Anderson
and that Anderson made the final decisions. (Id. at 2)
Movant advised the agents that he had “nothing to
hide.” (Id.) The agents reported that Movant had
advised them he “did not know if loan documents were
falsified, but he did not believe this would have
happened.” (Id.) Movant explained that draw requests
were usually faxed to borrowers for signatures but
sometimes were e-mailed. (Id. at 3) Movant reportedly
declared he was unaware of “anyone copying and pasting
signatures on documents,” that he had been aware of
all draw requests, and that copying and pasting of
signatures “did not occur on the draw requests.” (Id.)
In April 2011, Movant’s defense counsel wrote the
Government prosecutor about the mortgage fraud
investigation of Paxton Anderson. (Doc. 7-2 at 2-3)
Counsel discussed Movant’s cooperation with the
interviewing agents when they had interviewed him
in August 2010 and reiterated that Movant had
informed the agents then “that he was unaware of any
wrongdoing in connection with his involvement with
Paxton Anderson and does not believe it would serve

App.18a
any purpose for him to repeat that information in
another interview.” (Id.) Defense counsel advised the
prosecutor he was “investigating the allegations” in
materials the prosecution had provided and that counsel
would update the prosecutor if Movant intended “to
provide documentary evidence or witness statements
further supporting [Movant’s] statements and refuting
the allegations of the confidential informants.” (Id. at
3) Movant’s position throughout trial was that he was
innocent of the charges. At sentencing, Movant’s counsel
advised the Court that “because we have an appeal
brewing here, I have recommended that [Movant] not
say anything substantive about the offenses of conviction.” (Doe. 503 at 49)
Nowhere in Movant’s argument does he state that
the Government approached his counsel to discuss a
cooperative witness agreement, or, significantly, that
he would have been willing at that time to enter such
an agreement. (Doc. I at 8-10, Doc. 8 at 3-4) To the
contrary, as discussed above, the record shows that
during the pre-indictment period in April 2011, Movant’s
defense counsel advised the Government essentially
that Movant had already cooperated with the FBI and
IRS investigating agents and that it would not serve
any purpose to tell them the same things in a subsequent interview.
Movant highlights the prosecution’s statements in
a March 2014 e-mail from the prosecutor to defense
counsel that the prosecution had been “absolutely
interested in cooperation of [Movant] preindictment.
Indeed, many of the witnesses during trial prep have
expressed surprise that he did not come in to help
himself Given [Movant’s] insider role, he should have
cooperated but didn’t.” (Doe. 1-2 at 14 (emphasis in

App.19a
original)) The prosecutor then advised Movant’s counsel
that Movant’s “last ditch effort” shortly before trial to
cooperate held no interest for the Government. (Id.)
However, this circumstance, occurring shortly before
trial, is in stark opposition to Movant’s position early
in the investigation when other co-conspirators were
cooperating in the investigation and when the
prosecution stated it would have been interested in his
cooperation.
In light of the record indicating no evidence that
Movant was interested in a cooperating witness agreement until the window for such an opportunity had
closed, and abundant evidence that Movant was a
critical participant in the conspiracy, Movant has not
established and the record does not support a finding
that trial his counsel’s representation fell below an
objective standard of reasonableness or that that
counsel provided ineffective assistance that prejudiced
Movant’s defense. Strickland, 466 U.S. at 687-88, 692.
B. Ground Two: IAC — Counsel’s Agreement to a
Joint Defense
Movant argues his due process right to testify at
trial was violated because of ineffectiveness of defense
counsel due to a joint defense agreement with Anderson
that prevented Movant from testifying. (Doc. 1 at 11)
Movant alleges that under the agreement, counsel for
co-defendant Anderson took the lead in presenting the
defense. (Id.) Movant also states that the majority of the
evidence presented was against Anderson who masterminded the conspiracy and, unlike Movant, received
substantial sums of money as a result. (Id.) In
hindsight, Movant now argues that if he had been able
to testify, he would have been able to draw distinctions

App.20a
between himself and Anderson and that because he
was not able to testify, the jury “was left with the only
logical conclusion they could make, based on the prosecutor’s allegations, that [Movant] was as guilty as
Anderson.” (Id. at 12) Movant argues his trial counsel
was ineffective for purportedly “abandoning” Movant’s
defense and that there was no “logical or tactical
reason” for Movant not to testify, “and every reason
for him to testify.” (Id.)
In closing argument, defense counsel emphasized
that Movant made a relatively modest salary working
for Anderson with Dynamite Custom Homes and J.R.
Custom Homes, citing income of $2,193.00 every two
weeks. (Doc. 461 at 81-82, R.T. 06/03/2014) Additionally,
counsel highlighted for the jury that when the conspiracy
fell apart, the homeowners blamed Anderson, not
Movant, (Id. at 84) Defense counsel further argued the
evidence established that Movant had “no independent
authority to do much of anything at Dynamite or J.R.”
and that Anderson was pulling the strings. (Id. at 97)
Counsel contrasted Movant’s position in the conspiracy
with the positions of prosecution witnesses and coconspirators Mike Blemaster and Greg Sanchez; counsel
argued that the evidence showed that Blemaster and
Sanchez, who pled guilty for their roles in the conspiracy,
were trying to get rich, while Movant was simply
earning a salary with the object of trying to get homes
built. (Id. at 99) Thus, by Movant’s counsel allowing
Anderson’s counsel to take the lead, the jury likely
associated the bulk of the prosecution’s evidence with
Anderson, not Movant. Further, Movant’s counsel was
better able to distinguish Movant from Anderson and
attempt to cast Movant as a mere office worker lacking
in authority and influence in the conspiracy. Movant’s

App.21a
trial counsel succeeded with this strategy to some extent in that the jury found Movant not guilty on three
counts on which they found Anderson guilty. (Doc. 462
at 7-9)
The United States Supreme Court instructs that
joint trials of co-defendants within a conspiracy serves
an important purpose in the federal criminal system:
Rule 8(b) states that “NIA) or more defendants
may be charged in the same indictment or
information if they are alleged to have
participated in the same act or transaction or
in the same series of acts or transactions constituting an offense or offenses.” There is a
preference in the federal system for joint
trials of defendants who are indicted together.
Joint trials “play a vital role in the criminal
justice system.” Richardson v. Marsh, 481 U.S.
200, 209, 107 S.Ct. 1702, 1708, 95 L.Ed.2d
176 (1987). They promote efficiency and
“serve the interests of justice by avoiding the
scandal and inequity of inconsistent verdicts,”
Id., at 210, 107 S.Ct., at 1708. For these
reasons, we repeatedly have approved of joint
trials. See ibid.; Opper v. United States, 348
U.S. 84, 95, 75 S.Ct. 158, 165, 99 L.Ed. 101
(1954); United States v. Marchant, 12 Wheat.
480, 6 L.Ed. 700 (1827); cf. 1 C. Wright,
Federal Practice and Procedure § 223 (2d
ed. 1982) (citing lower court opinions to the
same effect).

Zafiro v. United States, 506 U.S. 534, 537-38 (1993). The
Supreme Court also recognized in Zafiro that in certain
circumstances, a joint trial of co-defendants may be
improperly prejudicial against one or more co-defendant:

App.22a
But Rule 14 recognizes that joinder, even
when proper under Rule 8(b), may prejudice
either a defendant or the Government. Thus,
the Rule provides:
If it appears that a defendant or the
government is prejudiced by a joinder of
. . . defendants . . . for trial together, the
court may order an election or separate
trials of counts, grant a severance of
defendants or provide whatever other
relief justice requires.
In interpreting Rule 14, the Courts of Appeals
frequently have expressed the view that
“mutually antagonistic” or “irreconcilable”
defenses may be so prejudicial in some
circumstances as to mandate severance. . . .
Notwithstanding such assertions, the courts
have reversed relatively few convictions for
failure to grant a severance on grounds of
mutually antagonistic or irreconcilable
defenses. See, e.g., United States v. Tootick,
952 F.2d 1078 (CA9 1991); United States v.
Rucker, 915 F.2d 1511, 1512-1513 (CA11
1990); United States v. Romanello, 726 F.2d
173 (CA5 1984). The low rate of reversal may
reflect the inability of defendants to prove a
risk of prejudice in most cases involving conflicting defenses.

Id. at 538. The Supreme Court recognized that “[w]hen
the risk of prejudice is high, a district court is more
likely to determine that separate trials are necessary,
but, as we indicated in Richardson v. Marsh, less drastic
measures, such as limiting instructions, often will

App.23a
suffice to cure any risk of prejudice. See 481 U.S., at 211,
107 S. Ct., at 1709.”
Here, the Court gave the jury the limiting instruction that “[s]eparate crimes are charged against each
defendant. The charges have been joined for trial. You
must consider and decide the case for each defendant on
each crime charged against that defendant separately.
Your verdict on any count as to any defendant should
not control your verdict on any other count or as to any
other defendant.” (Doc. 461 at 10-11, R.T. 06/03/2014)
Further, as detailed in Section V(A) above, the
Government presented abundant evidence at trial
that Movant was a critical participant in the conspiracy
and that specifically supported Movant’s guilt on the
charges that went to the jury.
Movant has not shown a “reasonable probability
that . . . the result of the proceeding would have been
different” if Movant had been tried separately from
Anderson and if Movant had testified at trial.
Strickland, 466 U.S. at 694. Applying the “strong presumption that counsel’s conduct falls within the wide
range of reasonable professional assistance[,]” Id. at
692, and based on the record, the undersigned concludes
that Movant’s trial counsel’s decision to enter into a
joint defense agreement neither fell below an objective
standard of reasonableness nor can be considered
deficient performance that prejudiced Movant’s defense.
C. Ground Three: Lack of Jurisdiction Over Charges
Movant argues the Court lacked jurisdiction for a
number of charges in this case in which loans were
obtained from the M&I Mortgage Corporation (“MIMC”),
a subsidiary of M&I Bank, which Movant contends

App.24a
was not covered by FDIC insurance. (Doc. 1 at 13-16)
The bank fraud charges on which Movant was convicted
alleged violation of 18 U.S.C. § 1344, which defines
a “financial institution” in part as one for which the
deposits are insured by the FDIC. (18 U.S.C. § 20(1))
Movant contends that charges involving loans made
by subsidiaries to banks, such as MIMC, were therefore
outside the Court’s jurisdiction. (Doc. 1 at 13-16)
Movant asserted this argument in his oral motion
for acquittal or for a motion for a new trial (Does. 174,
277) as a question of insufficient proof on the charges,
and reasserted it on appeal. Appellant’s Consolidated
Opening Brief, United States v. Plany, Nos. 15-10270,
15-10429, 2016 WL 919808, at “86-109 (9th Cir. Mar.
1, 2016). Movant’s appellate brief stated that to obtain
a conviction under § 1344, the Government must
prove the lending bank was FDIC-insured, and stated
this requirement is an element of the crime of bank
fraud, but also “a jurisdictional prerequisite.” Appellant’s
Consolidated Opening Brief, 2016 WL 919808, at **8788 (citing United States v. Dennis, 237 F.3d 1295,
1303 (11th Cir. 2001) and United States v. Bennett,
621 F.3d 1131, 1138 (9th Cir. 2010)).
The Ninth Circuit held that the evidence was
insufficient for the jury to find beyond a reasonable
doubt that M&I Bank was the lender on Count 1 only,
on which Anderson had been found guilty and Movant
in any case had been found not guilty. (Doc. 1-2 at 34) However, the Ninth Circuit also held there was
sufficient evidence to allow the jury to find that M&I
Bank was the lender on all of the remaining counts
involving M&I loans. (Id. at 4)
Although the Ninth Circuit did not expressly take
up Movant’s claim as a jurisdictional issue, it rejected

App.25a
the claim Movant relies on here for his jurisdiction argument. At oral argument on direct appeal, the court of
appeals was made aware that the record contained
imprecise documents that could support a conflict in
the evidence, such as loan and draw consent documents that referred to both M&I Bank and MIMC,
or only to MIMC, including some forms used at trial
that omitted MIMC from under the loan number
line. Oral argument, United States v. Plany, No. 1510270, 2017 WL 4037875 (9th Cir. Aug. 7, 2017). The
evidence the Ninth Circuit found sufficient to allow
the jury to find that M&I Bank was the lender on the
remainder of the M&I-related counts included “certificates of proof of insured status; testimony from [Wil]
Daly4, Blemaster, and Sanchez; Tasha Henstein’s
testimony regarding draw requests to M&I Bank; copies
of loan applications and draw requests; and payment
information.” (Doc. 1-2 at 4)
Movant has attached to the Motion fourteen draw
consent forms related to loans to borrowers Greg
4 Prosecution witness Wil Daly, who was an M&I Bank manager
of the bank’s wholesale mortgage operations, testified that M&I
Bank funded loans through wholesale origination where a broker
would originate a loan and then the loan would be “booked” to
M&1 Bank. (Doc. 453 at 32-33) He explained that “a local broker
would meet with a borrower. Originate the loan application.
Then sell one of our mortgage products which would then close
in our name and then it would stay on our bank’s books, whether
it be construction loan, land loan, or just a home purchase[.]” (Id.
at 33) Mr. Daly explained that M&I Bank also offered direct loan
origination when a customer came directly to the bank and dealt
directly with an M&I loan officer rather than using a broker
outside of the bank. (Id.) Mr. Daly identified witness Mike Blemaster
as a broker using M&I’s wholesale origination loan products. (Id.
at 34) Mr. Daly also identified Greg Slater as an employee of M&I
Bank who originated direct loans. (Id.)

App.26a
Sanchez and also to Will and Tasha Henstein, each
bearing the name “M&I Mortgage Corp.” at the top of
the form and each including a line for the “M&I
Mortgage Corp. Loan Number” with a loan number
supplied. (Doc. 1-2 at 22-35) However, these fourteen
draw consent forms are associated with only two loans.
Movant also attaches “Affidavit of Contractor Forms”
that each also list “M&I Mortgage Corp.” at the top of
the page and include an “M&I Mortgage Corp. Loan
Number.” (Id. at 37-47) Most of the latter forms are
associated with the draw consent forms Movant
supplied, and they all involve the same two loan numbers as the fourteen draw consent forms. (Id. at 37-41,
45-47) Movant erroneously argues that the draw consent
forms and affidavit of contractor forms “unequivocally
show M&I Mortgage Company was the lender in a
number of loans the charges were based on[.]” (Doc. 1
at 15 (emphasis supplied) (referring to the two loans,
one to the Hensteins, and one to Greg Sanchez)). These
documents were part of the evidence at trial and were
also subject to the Ninth Circuit’s review on direct
appeal, in which the court found the evidence sufficient
to establish that M&I Bank was the lender, not MIMC.
In its response to the Motion, Respondent also
discusses and highlights trial evidence supporting the
conclusion that M&I Bank was the lender, not MIMC.
(Doc. 7 at 18-21) Respondent’s cited evidence includes:
Wil Daly’s testimony; testimony of borrowers Greg
Sanchez, Tasha Henstein, and Bill Bailey about
obtaining their loans through M&I Bank; Uniform
Residential Loan Applications for three borrowers
indicating the loan officer worked for M&I Bank; loan
application papers directed to “M&I Bank”; bank
statements indicating wire payments were made to

App.27a
Dynamite from M&I Bank; and references to trial
evidence of monthly loan payments from borrowers or
from Anderson’s companies to M&I Bank. (Id.) This is
the evidence or type of trial evidence the Ninth Circuit
stated it relied on in holding the evidence was
sufficient to support a reasonable juror to find M&I
Bank was the lender. (Doc. 1-2 at 4)
Movant’s argument that the federal trial and
appellate courts lacked jurisdiction wholly depends on
facts and legal argument that he already raised on
direct appeal and that the Ninth Circuit rejected.
Both the District Court on Movant’s motion for acquittal
or for a new trial and the Ninth Circuit on appeal of
the Court’s ruling on the motion addressed the
sufficiency of the evidence regarding whether M&I
Bank was FDIC-insured and whether the M&I Bank
or MIMC was the lender on the loans. (CR Doc. 277,
Doc. 1-2 at 2-8) For Movant to prevail on his jurisdiction
argument would require the Court to reconsider the
same evidence and arguments Movant made unsuccessfully at trial and on appeal. Additionally, as noted,
Movant’s appellate brief stated that FDIC-insured
lender status is a jurisdictional issue.
“Issues raised at trial and considered on direct
appeal are not subject to collateral attack under 28
U.S.C. § 2255.” Egger v. United States, 509 F.2d 745,
748 (9th Cir. 1975); see also United States v. Redd, 759
F.2d 699, 701 (9th Cir. 1985) (holding that because the
defendant had “raised this precise claim in his direct
appeal, and this court expressly rejected it[,] . . . this
claim cannot be the basis of a § 2255 motion.”)
(citing Egger, 509 F.2d at 748). Moreover, “[g]rounds
which were apparent on original appeal cannot be made
the basis for a second attack under § 2255.” Egger, 509

App.28a
F.2d at 748. Movant’s revisiting here of the same
evidence and challenges he raised on direct appeal is
improper.
D. Evidentiary Hearing
Movant, who is represented by counsel, requests
that Movant’s convictions be set aside and the case
dismissed, but does not request an evidentiary hearing.
(Does. 1, 8) As discussed, in Grounds One and Two,
Movant alleges ineffective assistance of trial counsel.
To state a claim for ineffective assistance of counsel
such that he would be entitled to an evidentiary
hearing, a petitioner must allege facts showing that
“counsel’s conduct so undermined the proper functioning
of the adversarial process that the trial cannot be
relied on as having produced a just result.” Strickland
v. Washington, 466 U.S. 668, 686 (1984). This requires
a showing that (1) counsel’s performance was deficient
and (2) the deficient performance prejudiced the
defense. Id. at 687. The Court shall hold an evidentiary
hearing on a Movant’s Motion “[u]nless the motion
and the files and records of the case conclusively show
that the prisoner is entitled to no relief[.]” 28 U.S.C.
§ 2255(b). The standard for holding an evidentiary
hearing is whether the movant has made specific
factual allegations that, if true, state a claim on which
relief could be granted. United States v. Schaflander,
743 F.2d 714, 717 (9th Cir. 1984). A court need not hold
an evidentiary hearing if the allegations are “palpably
incredible or patently frivolous,” or if the issues can be
conclusively decided on the basis of the evidence in the
record. See Blackledge v. Allison, 431 U.S. 63, 76 (1977);
see also United States v. Mejia-Mesa, 153 F.3d 925,
929 (9th Cir. 1998) (noting that a “district court has
discretion to deny an evidentiary hearing on a § 2255

App.29a
claim where the files and records conclusively show
that the movant is not entitled to relief’).
In Ground One, Movant asserts his trial counsel’s
performance was deficient when he failed to “make
himself aware of [Movant’s] role in the case” and thus
failed to approach the Government to negotiate a
cooperating witness agreement. (Doc. 1 at 9) As is discussed above in Section V(A), on the evidence presented,
Movant’s claim that his trial counsel failed to make
himself aware of Movant’s role in the case is amply
refuted by the record. Movant’s counsel represented
him during pretrial investigations and throughout
trial, and the record convincingly contradicts Movant’s
argument that counsel could have been unaware of
Movant’s role and involvement. Undersigned recommends that an evidentiary hearing is unnecessary on
Ground One because the record conclusively shows
Movant’s counsel did not provide ineffective assistance.
In Ground Two, Movant argues that his due process
right to testify at trial was violated because of
ineffectiveness of trial counsel, who entered into a joint
defense agreement with Anderson that prevented
Movant from testifying. (Doe. 1 at 11) As discussed in
Section V(B) above, Movant summarily states without
any basis in the record that because of his counsel’s
representation under the alleged agreement, the jury
“was left with the only logical conclusion they could
make, based on the prosecutor’s allegations, that
[Movant] was as guilty as Anderson.” (Id. at 12) The
record definitively shows that Movant’s counsel did
not provide ineffective counsel and accordingly undersigned recommends that an evidentiary hearing is
unnecessary as to Ground Two.

App.30a
As is discussed above in Section V(C), Movant’s
Ground Three attempts to assert a claim that is entirely
premised on an issue already rejected by the Ninth
Circuit. The evidence Movant attaches to support his
argument was either introduced at trial (Doc. 1-2 at
22-58) or addresses a legal conclusion that was considered and conclusively decided by the Ninth Circuit
on appeal (Id. at 16-20).
Movant has not requested an evidentiary hearing.
For the reasons set forth above, Movant has failed to
establish he is entitled to an evidentiary hearing on
any of the Grounds in the Motion. Thus, undersigned
recommends that the Motion be denied without an
evidentiary hearing.
VI. Conclusion
As discussed above, the grounds in the Motion are
without merit and do not warrant an evidentiary
hearing. The Motion should be denied without an
evidentiary hearing. Further, Movant has not made a
substantial showing of the denial of a constitutional
right in any ground of his Motion; thus, a certificate of
appealability should be denied. See 28 U.S.C. § 2253
(c)(2).
Accordingly,
IT IS RECOMMENDED that Movant Joseph
John Plany’s Motion Under 28 U.S.C. § 2255 to Vacate,
Set Aside, or Correct Sentence by a Person in Federal
Custody (Doc. 1) be denied without an evidentiary
hearing.
IT IS FURTHER RECOMMENDED that a Certificate of Appealability be denied because Movant has not

App.31a
made a substantial showing of the denial of a constitutional right as required by 28 U.S.C. § 2253(c)(2).
This recommendation is not an order that is
immediately appealable to the Ninth Circuit Court of
Appeals. Any notice of appeal pursuant to Rule
4(a)(1), Federal Rules of Appellate Procedure, should
not be filed until entry of the district court’s judgment.
The parties shall have fourteen days from the date of
service of a copy of this recommendation within which
to file specific written objections with the Court. See
28 U.S.C. § 636(b)(1); Rules 72, 6(a), 6(b), Federal Rules
of Civil Procedure. Thereafter, the parties have fourteen
days within which to file a response to the objections.
Failure timely to file objections to the Magistrate
Judge’s Report and Recommendation may result in
the acceptance of the Report and Recommendation by
the district court without further review. See United
States v. Reyna-Tapia, 328 F.3d 1114, 1121 (9th Cir.
2003). Failure timely to file objections to any factual
determinations of the Magistrate Judge will be considered a waiver of a party’s right to appellate review
of the findings of fact in an order or judgment entered
pursuant to the Magistrate Judge’s recommendation.
See Rule 72, Federal Rules of Civil Procedure.
Dated this 17th day of April, 2020.
/s/ Deborah M. Fine
United States Magistrate Judge

App.32a

ARTICLE: JUDGE TELLS LAWMAKERS

ARIZONA FEDERAL COURTS ARE
OVERLOADED, OVERWORKED
(FEBRUARY 24, 2021)
By Ryan Knappenberger
CRONKITE NEWS
February 24, 2021

The Sandra Day O’Connor Courthouse in
Phoenix is one of several federal district court
facilities in Arizona, but court officials told
Congress they need more judges to help handle
the staggering caseload. The 13 judges in the
district were assigned an average of 663 cases
in fiscal 2020, a court report said. (File photo
by Harrison Mantas/Cronkite News)
WASHINGTON - The federal district court in Arizona
has been struggling to keep pace with a staggering
civil and criminal caseload in the growing state, and
it needs more judges to keep up, a judge from the court
told lawmakers Wednesday.

App.33a
U.S. District Judge Diane Humetewa was joined
by other judges and law professors who called on
Congress to fill vacancies and consider reforms for the
justice system to streamline operations and share some
of the load.
“In Arizona, the status quo simply cannot meet
the constitutional mandate to administer meaningful
justice to all,” Humetewa told a House Judiciary subcommittee Wednesday.
Even after a. sharp drop in cases from the year
before, the 8,614 criminal and civil cases filed in the
Arizona district in fiscal 2020 still meant an average
of 663 cases for each of the 13 judges in the district,
according to a report by the Administrative Office of
the United States Courts. That was the 16th-highest
per-judge caseload among the 94 federal districts in
the nation, the report said.
But Arizona is not the only district that is struggling. Kimberly J. Mueller, chief judge for the Eastern
District of California, likened federal judges’ situation
to Sisyphus of Greek myth, “condemned eternally to
roll a boulder uphill, only to have it roll down again
when he reaches the top.”
“For 20 years plus, we’ve been in a judicial
emergency, we cannot fulfill our obligations without
Congressional action creating new judgeships,” Mueller
said.
Their pleas had a receptive audience at the hearing,
with lawmakers from both parties expressing support
for judicial relief.
“Arizona desperately needs more federal district
judges and the district court has been working with

App.34a
too little for too long, at the expense of Arizonans, who
should have fair unobstructed access to our country’s
judicial system,” said Rep. Greg Stanton, D-Phoenix.

U.S. District Judge Diane Humetewa told a
House subcommittee that the 13 judges CM the
federal district court in Arizona “cannot meet
the constitutional mandate to administer
meaningful justice to all.” (Photo courtesy
House Judiciary Committee)
Humetewa described how felonies committed on
tribal lands are handled in federal district courts,
often forcing parties to travel hundreds of miles from
reservation lands to Phoenix to argue their case.
Stanton called for a new judgeship in Flagstaff to
handle cases in northern Arizona, particularly cases
from tribal lands. Such a judge would allow for grand
juries “made up of peers . . . more accurately representative of the community,” and would ease travel
burdens on other judges in the district, he said.
Rep, Darrell Issa, R-Calif., said “while the decision
for new judgeships is overdue, it is also important that
we do it on a bipartisan basis?’

App.35a
But Andrew Coan, professor of law at the University of Arizona, said in an email Wednesday that the
“crisis of volume” courts face is a political as well as a
logistical one.
“The country could certainly use more judges, but
this is tricky politically because a large expansion of
judiciary would give the current president a lot of new
appointments,” Coan said. “One way to overcome this
would be to stagger appointments over time.”
That suggestion came up at the hearing.
“I don’t think the right way to do this is to add a
bunch of judgeships,” said Brian Fitzpatrick, law
professor at the Vanderbilt Law School. “That’s going
to have a predictable partisan effect.
“The right way to do this is to push off the
effective date of the new judgeships until there is a
new presidential administration,” Fitzpatrick said
during his testimony.
But Duke University Law Professor Marin K. Levy
pointed out that there has never been an instance of
staggering appointments in such a way.
“If there’s a leak in your roof, you don’t want to
hear that you’re going to have someone fix it a year
from now or four years from now, you want it fixed as
soon as possible,” Levy said.
However it’s done, Mueller said, Congress needs
to help the courts now. “Without your help, justice
delayed is in fact justice denied,” she said.

App.36a

PODCAST EXCERPT: WHY LEGAL EXPERTS

AND FEDERAL JUDGES CALL FOR A
JUDICIARY EXPANSION IN ARIZONA
(FEBRUARY 24, 2021)
Martiza Dominguez
ARIZONA REPUBLIC
June 2, 2021

The House Judiciary Committee held a hearing
on Feb. 24 to hear arguments from federal judges
across the country about the need to expand the bench
including Diane Humetewa, a federal judge in Arizona
and the former U.S. Attorney for the District of Arizona.
She testified about the longstanding, unmet need
for more federal judges in her state.
Arizona is one of the nation’s fastest-growing
states, but the number of judges has been stagnant for
most of the past three decades. This has caused a legal
backlog. It’s been more than 30 years since Congress
passed a broad expansion of the judiciary. In that

App.37a
time, the nation’s population has grown, technology
has raised an array of previously unimaginable legal
concerns and globalization has upended the economy.
Democrats and Republicans agreed at the February
hearing that the nation is overdue for more judges.
In this week’s episode of The Gaggle: An Arizona
politics podcast, hosts Yvonne Wingett Sanchez and
Ronald J. Hansen break down why and how this legal
bottleneck affects Arizonans.
Joining the show are Carl Tobias, a law professor
at the University of Richmond, and Rep. Greg Staton,
D-Ariz., a judiciary committee member.
LISTEN TO THE EPISODE
The best way to listen is to subscribe to The Gaggle
on your favorite podcast app, but you also can stream
the full episode below.

